Supreme Court, U.S.
FILED

45 ©

JUN 0 8 2021
OFFICE OF THE CLERK

No.

IN THE SUPREME COURT OF THE UNITED STATES

RONALD ANTHONY GOMEZ,
Petitioner,
vs.
CHRISTIAN PFEIFFER and
RALPH DIAZ,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

RONALD A. GOMEZ, #AL6739
R.J. Donovan State Prison
RJDSP-A4-127
480 Alta Road
San Diego, CA 92179
Petitioner In Pro Se,
RONALD ANTHONY GOMEZ

•; rr
f

!■') N '-‘S< 4i ijc-!
r

i

/P
*i

v lh'\

•.<;* 1

u"i

QUESTIONS PRESENTED
I. Does a state trial court’s failure to give a unanimity instruction
to a jury in a criminal trial raise a debatable valid claim of the
denial of a constitutional right under the Fourteenth Amendment
Due Process Clause (Schad v. Arizona, 501 U.S. 624, 631-633
(1991)), or do such claims involve Sixth Amendment Jury
Unanimity, which had not been extended to the States at the time
of trial. Apodaca v. Oregon, 406 U.S. 404 (1972)?
II. Does a state trial court’s instruction to the jury in a criminal
trial that the jurors need not be unanimous as to which act
resulted in assault likely to result in great bodily injury, coupled
with an instruction on the elements of a different charge, raise a
debatable valid claim of the denial of a constitutional right under
the Fourteenth Amendment Due Process Clause (Schad v.
Arizona, 501 U.S. 624, 631-633 (1991)), or do such claims involve
Sixth Amendment Jury Unanimity, which had not been extended
to the States at the time of trial. Apodaca v. Oregon, 406 U.S. 404
(1972)?
III. Did the Court of Appeal err in denying Petitioner’s request for
a Certificate of Appeal following the District Court’s denial of
Petitioner’s Petition for a Writ of Habeas Corpus from a state
conviction on the grounds that no reasonable jurist would find it
debatable whether a state trial court’s failure to give a required
unanimity instruction to a jury in a criminal trial states a
constitutional right?
IV. Did the Court of Appeal err in denying Petitioner’s request for
a Certificate of Appeal following the District Court’s denial of
Petitioner’s Petition for a Writ of Habeas Corpus from a state
conviction on the grounds that no reasonable jurist would find it
debatable whether defense counsel’s agreement with the trial
court’s erroneous instruction and/or failure to object and/or
request a unanimity instruction did not result in constitutionally
deficient counsel under the Sixth Amendment?

ii

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
1. Gomez v. Pfeiffer, et al., District Court for the Central District of
California, 2:19-cv-023756 DMGF-MRW
2. Gomez v. Pfeiffer, et al., District Ninth Circuit Court of Appeals,
20-56214
3. People v. Ronald A. Gomez, Second District Court of Appeal for
California, B275656; review denied S246122.
4. In re Gomez (State Habeas Petition), Second District Court of
Appeal for California, B288576; review denied S250113.
5. People v. Ronald A. Gomez, Los Angeles County Superior Court,
KA111430

■>

iii

TABLE OF CONTENTS
Questions Presented

1

List of Parties

n

Related Cases

n

Table of Contents

in

Index to Appendices

in

Table of Authorities

IV

Opinions below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1

Statement of the Case

3

Reasons for Granting the Writ

9

Conclusion

27

INDEX TO APPENDICES
Appendix A
Appendix B

J*

iv

TABLE OF AUTHORITIES
Cases:
Apodaca v. Oregon 406 U.S. 404 (1972)..............

10, 13, 14

Arevalo v. Katavich 2015 WL 5074467 (2015) ....

15

In re Cordero 46 Cal.3d 161 (1988).......................

24

In re Marquez 1 Cal.4th 584 (1992)......................

24

In re Visciotti 14 Cal.4th 325 (1996)....................

25

In re Winship 397 U.S. 358 (1970).......................

16

Johnson v. Louisiana 406 U.S. 356 (1972)..........

14

King v. Schriro 537 F.3d 1062 (2009)..................

9

Miller-El v. Cockrell 537 U.S. 322 (2003)...........

9

People v. Debose 59 Cal.4th 177 (2014)...............

26

People v. Hernandez 217 Cal.App.4th 559 (2013)

passim

People v. Ledesma 43 Cal.3d 171 (1987)..............

24, 25

People v. Percelle 126 Cal.App.4th 164 (2005) ....

21

People v. Riel 22 Cal.4th 1153 (2000)..................

18

People v. Rogers 39 Cal.4th 826 (2006)...............

26

People v. Roldan 35 Cal.4th 646 (2005)...............

26

People v. Russo 25 Cal.4th 1124 (2001)...............

18, 19

People v. Salazar 63 Cal.4th 214 (2016)..............

26

People v. Stankewitz 51 Cal.3d 72 (1990)...........

22

People v. Sutherland 17 Cal.App.4th 602 (1993) ,

18

People v. Wolfe 114 Cal.App.4th 177 (2003)........

14, 16, 19

Ramos v. Louisiana 140 S.Ct. 1390, 206 L.Ed 2d 583 (2020) .... 2, 11, 13
Schad v. Arizona 501 U.S. 624 (1991)

passim

>

Silva v. Wood 279 F.3d 825 (2002).......................

9

Slack v. McDaniel 529 U.S. 4783 (2000).............

9

Strickland v. Washington 466 U.S. 668 (1984) ...

.....24, 25

Teague v. Lane 489 U.S. 288 (1989)....................

10, 12, 23
15

Villa v. Mitchell 2006 WL 707363, *20-21 (2006)
Statutes:

28 U.S.C. § 2253 .............................................

2,9

28 U.S.C. § 2254 .............................................

2

Cal. Penal Code § 69........................................

7

Cal. Penal Code § 148......................................

20

Cal. Penal Code § 240 ......................................

passim

Cal. Penal Code § 241......................................

. 19, 20

Cal. Penal Code § 245 ......................................

6, 7, 19

Cal. Penal Code § 12022.7 ...............................

7

Constitutions:
Cal. Const., Art 1, §§ 15, 16..................................

14

U.S. Const., 5th Amend...........................................

1

U.S. Const., 6th Amend...........................................

passim

U.S. Const., 14th Amend.........................................
Other:

passim

CALJIC 9.00............................................................

6, 20

CALJIC 9.20............................................................

6

Fed. R. App. P. 22

2

J

1

OPINIONS BELOW
The opinion of the United States Court of Appeals for the Ninth
Circuit appears at Appendix A to the Petition and is unpublished.
The opinion of the United States District Court for the Central
District of California appears at Appendix B to the Petition and is
unpublished.
JURISDICTION
The date on which the United States Court of Appeals decided my
case was January 14, 2021.
No petition for rehearing was timely filed in my case.
CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
Petitioner relies on rights guaranteed by the United Statutes
Constitution:
Fifth Amendment: “No state shall... deprive any person of life,
liberty, or property, without due process of law[.]”
Sixth Amendment: “In all criminal prosecutions, the accused shall
enjoy the ... right to have the Assistance of Counsel for his defense.”
Fourteenth Amendment: “No state shall... deprive any person of
life, liberty, or property, without due process of law[.]”

2

Petitioner relies on rights guaranteed in statutory provisions:
28 U.S.C. § 2254: Petition for Writ of Habeas Corpus
28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b): Certificate of Appeal
STATEMENT OF THE CASE
Procedural Posture
On May 1, 2019, petitioner filed a petition for writ of habeas
corpus in the United States District Court, Central District of California
as a state prisoner pursuant to 28 U.S.C. § 2254, after exhausting his
state remedies on appeal and habeas corpus.
On May 6, 2019, the district court issued an order to show cause
and ordered the parties to brief the issues.
On January 8, 2020, a magistrate judge, filed the report and
recommendation to the district court judge, finding that the state court
decisions denying petitioner’s claims were neither contrary to, nor
unreasonable applications of, clearly established federal law and
recommending that the petition be denied.
On August 21, 2020, the magistrate judge filed a supplemental
statement of decision finding that Ramos v. Louisiana, 140 S. Ct. 1390,
206 L. Ed. 2d 583 (April 20, 2020), as there was no federal right to a

>

3

unanimous jury in a state criminal case in California at the time of
petitioner’s trial.
On October 19, 2020, the district court judge accepted the reports
and recommendations of the magistrate judge, entered judgment, and
dismissed the petition with prejudice, and denied a certificate of
appealability in full. (Appendix B, Order of District Court.)
On November 11, 2020, petitioner, acting in pro per, sent to the
district court a notice of appeal from the judgment and orders in his
case. The notice was filed on November 17, 2020.
On November 18, 2020, petitioner filed an application for
certificate of appeal and appointment of counsel in the court of appeal.
On January 14, 2021, the court of appeal issued an order denying
appellant/petitioner’s request for a certificate of appeal, “because
appellant has not shown that ‘jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling’.” The court also
denied petitioner’s request for counsel as moot. (Appendix A, Order of
Court of Appeal.)

>

4

Statement of Facts
The State Court Conviction
On December 27, 2015, petitioner, who was homeless, was
sleeping on the front porch of his mother’s home in knowing violation of
a court order that he stay away from her home. The front porch of the
house was elevated about 4—6 feet above the ground and was accessed
by a flight of stairs leading to the middle of the porch. The porch was
surrounded by a short wall, approximately 3-4 feet tall. Petitioner slept
there because he did not have anywhere to go and wanted to be safe.
The police were called, and an officer was dispatched. The officer
was 6’ tall and weighed 240 pounds, whereas petitioner was 5’6” tall
and weighed 130 pounds.
The officer climbed the steps to the porch and spoke to petitioner,
who was asleep. Petitioner gave the officer his name and told him he
was on parole. Petitioner stood up at the officer’s instruction so he could
be handcuffed while they figured things out.
According to the officer, to detain petitioner, he grabbed him by
the right arm as petitioner was starting to move away from him.
Petitioner then grabbed the officer’s right wrist or forearm and hurdled

5

over the short wall on the porch to ground below, pulling the officer over
the wall. The officer said his legs hit the short wall around knee-high
and he lost his balance, falling headfirst to the ground below, resulting
in his injuries.
Petitioner testified that he decided to run away, as he believed
there was a warrant for his arrest for failure to communicate with his
parole officer and he did not want to go to jail. Once the officer directed
him to turn around to apply the handcuffs, petitioner turned around,
ran to the short wall around the porch and jumped over it to escape. As
he was hurdling over the porch wall, petitioner felt the officer grab his
shoulder to pull him back; however, their momentum carried them both
over the wall to the ground. Petitioner got up and ran away. Petitioner
was trying to run away and never grabbed the officer and never pulled
him over the ledge. He argued that grabbing the officer was
inconsistent with his intent to flee.
The trial court’s and defense counsel’s handling of the issues
raised by these two versions of events are the source of the errors
complained of by petitioner.

>

6

During deliberations, the jury asked for clarification as to which
act constituted the assault in Count 1 (Cal. Penal Code § 245, subd. (c)
[assault on a peace officer by means likely to result in great bodily
injury]): the “dual grab between Ronald & the officer or the single grab
to the shoulder from the officer to Ronald?” The Court did not directly
answer the question; rather a written statement was given to the jury
with the concurrence of defense counsel, which read as follows:
“You are the sole and exclusive judges of the facts of this case.
First, you must determine what facts have been proved from the
evidence received in the trial and not from any other source. A
‘fact’ is something proved by the evidence or by stipulation.
In this case you must unanimously agree that the defendant
willfully committed an act which by its nature would probably and
directly result in the application of physical force on another
person. You were directed to CALJIC 9.00, page 24 of the
instructions.1
You do not have to unanimously agree as to which act the
defendant committed upon another person.”
Immediately after being given this written answer, the jury
returned verdicts of Guilty to Count 1 (Cal. Penal Code § 245, subd. (c)

1 This is the instruction for Simple Assault (California Penal Code §
240), a different crime, not the charge in Count 1 that the jury asked
about, which must include the requirement that the force likely result
in great bodily injury. The crime charged is defined in CALJIC 9.20.

;>

7

[Assault of a Peace Officer with Force likely to Result in Great Bodily
Injury]) and Count 2 (Cal. Penal Code § 69 [Obstructing/Resisting an
Executive Officer]) and found true that great bodily injury occurred as a
result (Cal. Penal Code § 12022.7(a))2.
The trial court’s answer directed the jury to the jury instruction
on Simple Assault (Penal Code § 240), not assault on a peace officer
with force likely to result in great bodily ((Penal Code § 245, subd. (c)),
which had been the subject of the jury’s inquiry about Count 1. This
invited the jury to convict the defendant for an act requiring less force
than the crime charged, which required force likely to result in great
bodily injury.
The trial court’s answer also instructed the jurors that it was not
necessary for them to be unanimous as to which act constituted the
assault, petitioner and the officer grabbing each other or the officer
grabbing the petitioner, permitting the jury to return a less than
unanimous verdict by cobbling together a verdict from the two versions

2 The great bodily injury enhancement was reversed on appeal due to an
error in the jury instruction on this issue. On remand, the government
did not pursue the GBI enhancement.

8

of events, which supported different criminal conduct but not the
elements of Count 1.
On direct appeal the state court of appeal ruled that the error of
the answer to the jury and failure to request a unanimity instruction
were forfeited on appeal due to trial defense counsel’s agreement with
the answer and failure to object. The court also ruled that any questions
of constitutionally ineffective assistance of counsel (IAC) had been
forfeited by appellate counsel’s failure to raise them in the opening
brief. The merits of the substantial constitutional claims were never
reviewed on direct appeal; however, these issues were all raised in a
subsequent petition for writ of habeas corpus and petition for review
from the denial of the writ in the state courts. These petitions were
denied without opinion.
The trial court’s answer to the jury’s inquiry and subsequent
instruction, and defense counsel’s concurrence with it and to failure to
request a unanimity instruction, resulted in harm to petitioner’s
substantial statutory and federal constitutional rights, including the
right to a unanimous jury, a verdict beyond a reasonable doubt,

9

effective assistance of counsel, and a fair trial. U.S. Const. Amend. 5, 6,
14.
REASONS FOR GRANTING THE PETITION
Standard for Granting a Certificate of Appeal
Ronald Gomez sought a certificate of appeal asking that the court
of appeal review the district court’s judgment denying his petition for
writ of habeas corpus.
A habeas petitioner may not appeal a final order in a federal
habeas corpus proceeding without first obtaining a certificate of appeal
(COA). 28 U.S.C., § 2253(c)(2); Fed. R. App. P. 22(b). To obtain a COA,
petitioner need not demonstrate that he would ultimately win the
appeal. Silva v. Woodford, 279 F.3d 825, 833 (9th Cir. 2002). Petitioner
needs to only demonstrate that jurists of reason could disagree with the
district court's resolution of the claim or that jurists could conclude that
issues presented are adequate to deserve encouragement to proceed
further. Slack v. McDaniel, 529 U.S. 473, 484-485 (2000). This standard
is liberally construed in favor of appellate review and is not onerous.
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003); King v. Schriro, 537 F.3d
1062, 1075 (9th Cir. 2009).

■>

10

There were valid constitutional claims stated in the petition.
The court of appeal denied the request for a certificate of appeal
because no reasonable jurist would find it debatable whether the
petition stated a valid claim of the denial of a constitutional right and
would find it debatable whether the district court was correct in its
procedural ruling. (Appendix A.)
Petitioner sought habeas relief on the grounds that the state trial
court violated his constitutional right to due process when it advised the
jury in petitioner’s criminal trial that the jury need not be unanimous in
determining which act of petitioner resulted in the assault of a police
officer by means likely to result in great bodily injury and then
instructed the jury on the elements of a different crime. In addition,
trial defense counsel provided constitutionally deficient representation
when counsel agreed with the trial court’s erroneous instruction to the
jury and failed to request a unanimity instruction.
In denying the petition, the district court reasoned that no federal
right was implicated, Teague v. Lane, 489 U.S. 288, 310 (1989), because
the Sixth Amendment Right to a Unanimous Jury had not been
extended to the states at the time of trial. Apodaca v. Oregon, 406 U.S.

11

404 (1972). The district court further ruled that the recently decided
Ramos v. Louisiana, 140 S. Ct. 1390, 206 L. Ed. 2d 583 (April 20, 2020)
(Ramos), extending to the states the Sixth Amendment right to a
unanimous jury, was not retroactive.3
Appellant’s position was that the right to a unanimity instruction
in a state criminal jury trial implicates the Fourteenth Amendment Due
Process Clause, as was articulated by the Supreme Court in Schad v.
Arizona, 501 U.S. 624, 631-633 (1991) (Schad). Further, because
California is a state that has adopted the jury unanimity requirement
for criminal trials, denying a defendant a unanimous jury, results in an
unfair trial in violation of due. process.
For decades California courts have found that the requirement for
a unanimity instruction in criminal trials is based in federal and state
due process. When a verdict of Guilty is returned by a jury that has not
been properly instructed as to the elements of the crime, the
prosecution’s burden has been lightened and proof of the defendant’s
conduct has not been established beyond a reasonable doubt.

3 This Court had not yet issued its opinion in Edwards v.
Vannoy __ U.S.__ [141 S.Ct. 1547,___ L.Ed.2d__ ] (2021), holding that
Ramos is not retroactive.

>

12

Although petitioner’s direct state appeal was denied on procedural
grounds because defense counsel concurred with the trial court’s answer
and instruction to the jury, the issues were reviewable in federal court,
as the procedural error was the result of defense counsel’s
constitutionally ineffective assistance at trial.
These issues were properly raised in the petition in the district
court and should have been reviewed by the court of appeal, as
reasonable jurists could find debatable the questions of whether errors
in jury instructions that effect jury unanimity in a state criminal trial
can result in Fourteenth Amendment Due Process violations; whether
due process was violated in the circumstances of petitioner’s case; and
whether defense counsel’s agreement with the court’s erroneous
statements and instructions to the jury amounted to ineffective
assistance of counsel under the Sixth Amendment.
Due Process
The district court denied the petition as federal relief is not
available for a trial court’s failure to give a unanimity instruction under
Teague v. Lane, supra, 489 U.S. at p. 310. The decision is premised on
the idea that at the time of appellant’s trial the Sixth Amendment right

13

to a unanimous jury had not yet been extended to the States, and even
if a defendant has been denied a unanimous jury verdict in a state
criminal prosecution through failure to give a unanimity instruction,
this cannot result in a federal constitutional violation and would require
a new rule of procedure to be imposed on the State.
This is incorrect, as the right to a jury unanimity instruction flows
from the Fourteenth Amendment Right to Due Process, the right to be
convicted by a jury by proof beyond a reasonable doubt as to each
element of the crime.
While the Supreme Court has held that the right to a unanimous
jury is included in the Sixth Amendment, at the time of petitioner’s
trial, this right had not been extended to the States through the
Fourteenth Amendment. Apodaco v. Oregon, supra, 406 U.S. at pp. 410413; disapproved in Ramos, supra. For instance, defendants may be
convicted by less than a unanimous jury in Oregon and Louisiana
where those states have created systems permitting conviction by less
than the unanimous jury. Until Ramos, this Court had held that the
unanimity provision of Sixth Amendment Right had not been extended

■ J

14

to the states in these circumstances. Apodaca, Id. at 406, n. 1; Johnson
v. Louisiana, 406 U.S. 356, 358, n. 1 (1972).
This type of case is inapplicable here, however, where California
requires that juries in criminal cases will consist of 12 persons and
must return a unanimous verdict beyond a reasonable doubt, just like
the federal system and other states. Cal. Const., Art. 1, §§ 15, 16; People
v. Wolfe, 114 Cal.App.4th 177, 186 (2003).
Petitioner was not requesting that the district court extend the
reach of the Sixth Amendment. This Court has already recognized that
failure to give a unanimity instruction in certain cases, violates the
right to a verdict beyond a reasonable doubt and due process, which are
recognized rights that apply to the states. This Court has recognized
that Fourteenth Amendment Due Process violations can masquerade as
Sixth Amendment jury “unanimity” problems. Schad v. Arizona, supra,
501 U.S. at pp. 631-633.
“[W]e think the right is more accurately characterized as a due
process right than as one under the Sixth Amendment. Although
this difference in characterization is important in some respects
(chiefly, because a state criminal defendant, at least in noncapital ,
cases, has no federal right to a unanimous jury verdict, [citations
omitted]), it is immaterial to the problem of how to go about
deciding what level of verdict specificity is constitutionally
necessary.”

15

(Id. at 634, n. 5.) The Schad Court then analyzed and ruled on this
Arizona conviction on Due Process grounds. There has been precedent
since at least 1991 establishing this circumstance as one involving a
federal right, which would permit habeas relief. Other federal courts
have reviewed claims of constitutional harm based on failure to give
unanimity instructions on petition for habeas relief, e.g., Villa v.
Mitchell, 2006 WL 707363, *20-21 (E.D.Cal.), although other cases have
refused to find a federal issue based on the denial to give a unanimity
instruction. Arevalo v. Katavich, 2015 WL 5074467.
California courts have recognized that the right to a unanimity
instruction emanates from the Fourteenth Amendment Due Process
Clause — whether the 12 jurors required in California are convinced of
the defendant’s guilt beyond a reasonable doubt. Otherwise, the
reasonable doubt requirement would become meaningless. The failure
to give a unanimity instruction has the effect of lowering the
prosecution’s burden of proof. A failure to give the instruction when it is
warranted runs the risk of a conviction when there is not proof beyond a
reasonable doubt. People v. Wolfe, supra, 114 Cal.App.4th at p. 186;
People v. Hernandez, 217 Cal.App.4th 559, 570 (2013) (Hernandez).

16

The instruction is not required in all cases. Trial courts must ask
whether (1) there is a risk the jury may divide on two discreet crimes
and not agree on any particular crimes, in which case the unanimity
instruction should be given, or (2) the evidence merely presents the
possibility the jury may divide, or be uncertain, as to the exact way the
defendant is guilty of the single discrete crime. Hernandez, supra, 217
Cal.App.4th 559, 569-570.
This analysis is similar to that used in Schad at 633-637, which
analyzed the unanimity question in an Arizona conviction, upholding
the conviction because the jury may have been divided on the
defendant’s state of mind when committing a single discreet statute
that set forth alternative mental states.
This Court has explicitly held that the Due Process Clause
protects the accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute the crime with
which he is charged. In re Winship, 397 U.S. 358, 364 (1970). Therefore,
if the trial court failed to give a unanimity instruction where one was
required and under the circumstances of the case the burden of proof

17

was lowered and the verdict was achieved by proof less than
constitutionally required, this is a violation of due process.
In Mr. Gomez’s case, the jury was at risk of dividing on multiple
discreet crimes while not agreeing on any particular crime, requiring
unanimity. The defendant was charged with multiple crimes with
different elements and requiring different levels of force and different
mental states. Petitioner and the police officer gave conflicting accounts
of how the officer fell and was injured. The officer said he grabbed the
defendant by the arm and that the defendant grabbed him back and
jumped over the railing, causing the officer to lose his balance. The
defendant admitted that he ran away from the officer but said the
officer grabbed him while he was hurdling the railing and the officer
lost his balance and fell. The prosecutor also argued that if the officer
grabbed Mr. Gomez and then the defendant jumped over the railing
while the officer had a hold of him causing the officer to fall, this was an
application of force and also qualified as an assault. The defendant did
not give a common defense to these charges, admitting things some,
while denying others.

18

Under both the state and federal constitutions, a jury verdict in a
criminal case must be unanimous. People v. Russo, 25 Cal.4th 1124,
1132 (2001). In addition, the jury must unanimously agree that the
defendant is guilty of a specific crime. Ibid. Therefore, “when the
evidence suggests more than one discrete crime, either the prosecution
must elect among the crimes or the court must require the jury to agree
on the same criminal act.” Ibid. In the absence of an election, a
unanimity instruction is required in order “ ‘to eliminate the danger
that the defendant will be convicted even though there is no single
offense which all the jurors agree the defendant committed.’[Citation.]”
(Ibid.) Where the instruction is warranted, the trial court must give the
instruction sua sponte. People v. Riel, 22 Cal.4th 1153, 1199 (2000).
Hernandez has given perhaps the best summary of the law on
unanimity instructions available in either federal or state court.
“A unanimity instruction is given to thwart the possibility that
jurors convict a defendant based on different instances of conduct.
The giving of [a unanimity instruction] “ ‘is intended to eliminate
the danger that the defendant will be convicted even though there
is no single offense which all the jurors agree the defendant
committed.’ ” (Russo, supra, 25 Cal.4th at p. 1132, quoting People
v. Sutherland (1993) 17 Cal.App.4th 602, 612.) Moreover, a
unanimity instruction is “ ‘designed in part to prevent the jury
from amalgamating evidence of multiple offenses, no one of which
has been proved beyond a reasonable doubt, in order to conclude

19

beyond a reasonable doubt that a defendant must have
done something sufficient to convict on one count.’ ” (Russo, supra,
25 Cal.4th 1124.) Thus, the instruction is given to ensure that all
12 jurors unanimously agree, and are unanimously convinced
beyond a reasonable doubt, which instance of conduct constitutes
the charged offense.
The importance of the unanimity instruction is rooted in the
Fourteenth Amendment to the United States Constitution's
requirement that all criminal defendants are afforded due process
of law. The failure to give a unanimity instruction “has the effect
of lowering the prosecution's burden of proof.” (People v. Wolfe
(2003) 114 Cal.App.4th 177, 186.) Accordingly, a failure to give the
instruction when it is warranted abridges the defendant's right to
due process, as it runs the risk of a conviction when there is not
proof beyond a reasonable doubt.
In deciding whether to give the instruction, the trial court must
ask whether (1) there is a risk the jury may divide on two discrete
crimes and not agree on any particular crime, or (2) the
evidence merely presents the possibility the jury may divide, or be
uncertain, as to the exact way the defendant is guilty of a single
discrete crime. (Russo, supra, 25 Cal.4th at p. 1135, italics added.)
In the first situation, but not the second, it should give the
unanimity instruction. (Ibid.)
People v. Hernandez, supra, 217 Cal.App.4th at 569-570.
In this case, the prosecution presented evidence at trial that
supported 5 different crimes: Assault (Pen. Code, § 240), Assault Upon a
Police Officer by Means Likely to Result in Great Bodily Injury (Pen.
Code, § 245, subdivision (c)), Assault on a Peace Officer (Pen. Code, §

20

241), Resisting an Executive Officer by Use of Force or Violence (Pen.
Code, § 69), and Resisting Arrest (Pen. Code, § 148, subdivision (a)(1)).
This trial presented different sets of facts, some of which
supported some crimes charged and some that supported others. The
risk presented by the written answer to their question on Count 1 was
that some jurors would believe petitioner grabbed the officer and pulled
him over, while others may have believed the officer grabbed petitioner
and petitioner then pulled the officer over the ledge, or that appellant
was grabbed by the officer after he began his leap over the ledge, which
pulled the officer over accidentally. Under the general rule, it might not
matter if these were all different ways of committing the same crime,
but they are not. In addition, the crime of assault (Pen. Code, § 240)
requires proof of all elements concerning a defendant’s single act. (See
CALJIC 9.00; “an act”, “the act”, and “this act”.)
The act of petitioner fleeing supports the resisting arrest charge,
while it may not support other charges. The act of jumping off the ledge
after having been grabbed by the officer might support a charge of
resisting an executive by force or assault but might not support a
charge of assault by means of force likely to cause great bodily injury.

21

By advising the jury that it did not need to unanimously agree on
the specific act which constituted the assault by means likely to result
in great bodily injury, they may well have assumed they were permitted
to use petitioner’s own testimony of being grabbed while in mid-air to
reach agreement and any other possible scenario to cobble together a
“unanimous” verdict.
If the court had advised the jury that they must unanimously
agree on which act constituted the assault, the outcome may well have
been different. Certainly, the jury instruction on assault required
determination of a singular act and flies in the face of the court’s
statement that unanimity is not required.
The district court concluded incorrectly that that petitioner’s acts
fell within the continuous course of conduct exception to the
requirement for a unanimity instruction. The exception holds that a
unanimity instruction is not “ ‘required when the acts alleged are so
closely connected as to form part of one continuing transaction or course
of criminal conduct,’ ” or

u i a

when the defendant offers essentially the

same defense to each of the acts, and there is no reasonable basis for
the jury to distinguish between them.” People v. Percelle, 126

22

Cal.App.4th 164, 181—182 (2005); see also People v. Stankewitz, 51
Cal.3d 72, 100 (1990). The justification for the exception is that there is
no need for an instruction when there is a single course of conduct
because members of the jury cannot distinguish between the separate
acts. Further, the instruction is unnecessary when the defendant
proffers the same defense to multiple acts because a guilty verdict
indicates that the jury rejected the defendant's defense in toto.
Hernandez, supra, 217 Cal.App.4th at p. 572.
Here, although the acts described occurred close in time, and both
involved contact between appellant and the officer, the jury could
clearly distinguish between them (after all they clearly asked for
clarification as to which of two acts constituted the crime). Also,
appellant’s defense was very different to each. He denied the
prosecution claim that he grabbed the officer and pulled him over the
ledge. However, concerning the conduct of fleeing the scene by jumping
over the ledge, being grabbed by the officer and running away, he
readily admitted this. The continuous course of conduct exception does
not apply.

23

Reasonable jurists could conclude that petitioner’s argument was
correct and that the district court erred in finding that the state court
answer and instructions to the jury were not erroneous and that no
unanimity instruction was required under state law. It is clear that the
question presented to the district court in the petition was whether the
trial court’s failure to instruct and answer to the jury violated
petitioner’s due process rights to a verdict beyond a reasonable doubt
and to a fair trial and was not based in the Sixth Amendment
unanimity requirement. A review of the briefs in the state courts of
appeal and California Supreme Court in Mr. Gomez’s case reveal that
this was always petitioner’s claim. It was respondent who injected the
Sixth Amendment right to unanimous jury into this case in hopes of
manufacturing a Teague violation, where none existed. They were
successful, as the District Court adopted this argument, giving the right
answer to the wrong question.
This Court should acknowledge the reality of what California
courts know and practice, and Schad explicated: that federal due
process requires unanimity instructions in certain cases such as this
one, and failure to give the instruction when required results in a denial

4

'

24

due process and does not lie in the Sixth Amendment’s requirement for
a unanimous jury.
Ineffective Assistance of Counsel
Both the Sixth Amendment to the United States Constitution and
article I, section 15 of the California Constitution guarantee a criminal
defendant effective assistance of counsel. Strickland v. Washington, 466
U.S. 668, 686, 691-692 (1984); People v. Ledesma, 43 Cal.3d 171, 215
(1987). The right of a criminal defendant to counsel “entitles the
defendant not to some bare assistance but rather to effective
assistance.” In re Cordero, 46 Cal.3d 161, 180 (1980). “Specifically, he is
entitled to the reasonably competent assistance of an attorney acting as
his diligent and conscientious advocate. Ibid. This means that before
counsel undertakes to act, or not to act, counsel must make a rational
and informed decision on strategy and tactics founded upon adequate
investigation and preparation.” In re Marquez, 1 Cal.4th 584, 602
(1992); People v. Ledesma, supra, 43 Cal.3d at p. 215. While scrutiny of
an attorney's conduct of the defense is deferential, that deference is
limited. “[I]t must never be used to insulate counsel's performance from
meaningful scrutiny and thereby automatically validate challenged acts

25

or omissions. Otherwise, the constitutional right to the effective
assistance of counsel would be reduced to form without substance.”
People v. Ledesma, supra, 43 Cal.3d at p. 217.
A habeas corpus petitioner bears the burden of proof of the facts
on which an incompetent counsel challenge to the validity of the
judgment under which the petitioner is restrained is predicated, by a
preponderance of the evidence. In re Visciotti (1996) 14 Cal.4th 325,
351. To prove he is entitled to habeas relief on a theory that he received
constitutionally inadequate representation by counsel at trial,
petitioner must establish by a preponderance of the evidence that
counsel's performance did not meet an objective standard of
reasonableness under prevailing professional norms and that he
suffered prejudice thereby. Strickland v. Washington, supra, 466 U.S. at
p. 694.
In petitioner’s matter, trial counsel agreed with and failed to
object to the Court’s answer to the jury in response to their question
about which act constituted the assault in Count 1, the police officer
being grabbed by petitioner or the officer grabbing the petitioner.
Defense counsel failed to request a unanimity instruction.

26

This resulted in the issues raised by this answer being forfeited on
appeal. California case law holds that counsel’s affirmative agreement
with or acquiescence to the court’s answer to a jury question forfeits the
claim of error on appeal. (People v. Salazar (2016) 63 Cal.4th 214,248;
People v. Debose (2014) 59 Cal.4th 177, 207; People v. Rogers (2006) 39
Cal.4th 826, 877; People v. Roldan (2005) 35 Cal.4th 646, 729.)
Defense counsel admitted her error in a declaration submitted in
support of the state petition for a writ of habeas corpus. Trial counsel
stated that she either mistakenly agreed with the court’s answer at the
time or failed to object on the record. (The record, however, shows she
agreed to the court’s answer on the record.) Defense counsel realized
her mistake after the jury returned a verdict and tried to correct it
through the motion for new trial. As she noted in the motion, the court’s
answer told the jury they need not be unanimous in which act they used
in finding the assault, which could have resulted in the jury using
either the police officer’s or petitioner’s version of event to convict
petitioner. This would result in a less than unanimous verdict and a
verdict that was not beyond a reasonable doubt. The answer also
wrongly directed the jury to the instruction for simple assault, when

27

their question was about Count 1, assault with force likely to result in
great bodily injury. Agreeing with the court’s erroneous and misleading
answer and failing to place an objection on the record fell below the
objective standard of reasonableness under prevailing professional
norms for trial defense counsel.
Petitioner, as previously stated, demonstrated the prejudice
suffered by petitioner from the mistake of counsel.
Reasonable jurists could conclude that defense counsel erred in
agreeing with the trial court’s answer and instruction and failure to
request a unanimity instruction and that the district court erred in
finding that defense counsel did not commit an error because the
unanimity instruction was not required and the that the court’s answer
to the jury was correct.
CONCLUSION
Reasonable jurists could find that the district court erred in
reaching its conclusions denying relief and entering judgment against
petitioner. Petitioner has demonstrated that he is deserving of a
certificate of appeal and requests this Court accept his petition for

28

certiorari, appoint counsel to represent him4, reverse the court of
appeal’s order denying the certificate of appeal, and remand the case
with an order that the court of appeal issue the certificate of appeal and
review the district court’s judgment denying the petition for writ of
habeas corpus on all grounds requested.

4

Christopher L. Haberman, who represented me on appeal by
appointment in the state courts, and before the district court pro bono,
is a member of the United States Supreme Court Bar and is familiar
with my case. I am informed that he would accept appointment in this
case if the petition for certiorari is granted and I request his
appointment.

